vr

'U"

3n tfie Supreme Court of tfje fflutteb States.
John Dan Bumphus, Jr., pro se. Petitioner
v.
UniQue Personnel Consultants, Inc., et al., Respondents

ON PETITION FOR A WRIT OF
CERTIORARI
TO THE UNITED STATES COURT OF
APPEALS FOR THE SEVENTH CIRCUIT
No. 19-2621

CORRECTED RULE 44 PETITION FOR REHEARING DECISION 20-7233
COMPLIANCE AFFIDAVIT AND PROOF OF SERVICE
John Dan Bumphus, Jr., pro se,

UniQue Personnel Consultants, Inc.

Plaintiff

Defendant

221 South Myrtle

217 W. Clay

Edwardsville, IL 62025-1510

Troy, IL 62294-1162

Question Presented for Review in 20-7233
Did the United States Court of Appeals for the Seventh Circuit abuse its jurisdictional
standard of review, by allowing a District Court judge to negate the total realm of protected act
ADA rights for a reported, medically diagnosed and documented, posttraumatic stress disorder
(PTSD) patient’s disability, by making the unsubstantiated declarative ruling that the
aforementioned PTSD “wasn’t permanent”?

/
/

COMPLIANCE AFFIDAVIT
I, John Dan Bumphus, Jr., pro se, am self-counseling this corrected Rule 44 Petition for
Rehearing. 1 am also declaring that the grounds presented herein for rehearing, while being
presented in good faith, and not for delay, have been limited to intervening circumstances of
substantial or controlling effect, or to other substantial grounds not previously presented. The
corrected Petition itself is 14 pages long.
s.//John Dan Bumphus, Jr.
John Dan Bumphus, Jr.

PROOF OF SERVICE
I, JOHN DAN BUMPHUS, JR., do swear or declare that on this date, June 30, 2021, asrequired by Supreme Court Rule 29 I have served the enclosed CORRECTED RULE 44
PETITION FOR REHEARING DECISION 20-7233 WITH COMPLIANCE AFFIDAVIT AND
PROOF OF SERVICE on each party to the above proceeding or that party’s counsel, and on
every person required to be served, by depositing an envelope containing the above documents in
the United States mail properly addressed to each of them and with first-class postage prepaid, or
by delivery to a third-party commercial carrier for delivery within 3 calendar days.

The names and addresses of those served are as follows:
Paul Gamboa
Ryan T. Brown
Gordon & Rees Scully Mansukhani, LLP
1 North Franklin St.
Suite 800
Chicago, IL 60606 Pgamboa@gordonrees.com rtbrown@gordonrees.com
Counsel for Jennifer Katherine Yates-Weller and Hcnnossy & Roach, P.C.

J. Hayes Ryan
Jonathan B. Blakley
Gordon & Rees Scully Mansukhani, LLP
1 North Franklin St.
Suite 800

.i
•y"

■

Chicago, IL 60606 havesrvan@gordonrees.com iblaklev@gordoiirees.com
Counsel for UniQue Personnel Consultants, Inc.

Andrew Toennies
Kirkendall Dwyer LLP
7710 Carondelet Avenue,
STE 404.
St. Louis, MO 63105 atoennies@kirkendalldwyer.com
Pro Se Counsel for Andrew Toennies

Robert J. Franco
Scott O. Reed
Franco & Moroney, LLC
500 W. Madison St.
Suite 2440
Chicago, Illinois 60661 Robert.franco@francomoroney.com
Scott.reed@, francomoronev.com
Counsel for Synergy Coverage Solutions, LLC

I declare under penalty of perjury that the foregoing is true and correct.

Executed on .Tune 30, 2021-.

/s./John Dan Bumphus. Jr., pro se

